DALLAS | AUSTIN | BATON ROUGE | NEW ORLEANS | LOS ANGELES
SAN DIEGO

|

NEW JERSEY

|

tel 202.333.4924
fax 202.337.1039

NEW YORK

| WASHINGTON, DC

600 New Hampshire Avenue NW
10 th Floor
Washington, DC 20037

September 17, 2020
Via Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
RE:

Bristol-Myers Squibb Co. v. State of New Mexico ex rel. Hector Balderas, Attorney
General, No. 20-293, Motion to Extend Time to File Brief in Opposition

Dear Mr. Harris:

Pursuant to Supreme Court Rule 30.4, Respondent the State of New Mexico ex rel. Hector
Balderas, Attorney General, respectfully moves for an extension of time, up to and including
November 5, 2020, in which to file its brief in opposition to the petition for a writ of certiorari in
the above-captioned matter.
Petitioners filed their petition for a writ of certiorari on September 3, 2020, and the petition
was docketed on September 8. Respondent’s brief in opposition is currently due on October 8.
Respondent’s counsel of record did not represent respondent in any of the proceedings
below. Counsel of record, therefore, needs additional time in which to familiarize herself with the
record below and to adequately prepare the brief in opposition. For that reason, respondent
respectfully requests a 30-day extension of time, up to and including November 5, 2020, in which
to file its brief in opposition.
Petitioners’ counsel of record, Mr. John Elwood, has represented that he does not oppose
the requested extension.
Respectfully submitted,
s/Catherine H. Dorsey
Catherine H. Dorsey
Counsel of Record for Respondent

cc: Mr. John Elwood (Counsel of Record for Petitioners)

